                                           NATIONAL RAILROAD PASSENGER CORPORATION
                                                 Off~ceof Inspector General, 10 G Street, NE, Su~te3W 300, Wa~hln(jlo11,I ) ( ~ i r l i l l




                                                                                                                    AMTRAK




August 5,2005


Mr. Kirt West
Inspector General
Legal Services Corporation
3333 K Street NW, 3 1 Floor
                      ~
Washington, DC 20007

Dear Mr. West:

Enclosed is the final Peer Review report on the Legal Services Corporation (LSC) -
Office of Inspector General (OIG). This report is issued in accordance with the standards
and guidelines established by the President's Council on Integrity and Efficiency.

We have enclosed your response to our draft report in'its entirety as an appendix to this
final report. While your response includes additional information with respect to the first
three findings and the two observations, it did not alter the recommendations included in
our draft report. Your comments specific to each recommendation have been
incorporated into the report text under the respective findings. These comments indicate
that you concur with our recommendations and appropriate actions will be taken by the
LSC OIG to address our recommendations.

We are including four additional copies of the final report for distribution to the head of
the agency, the Chair of the PCIE, the Vice Chair of the PCIE, and the Chair of the PCIE
Audit Committee.

We appreciate the cooperation of your office throughout this peer review process.

Sincerely,



Fred E. Weiderhold, Jr.
Inspector General

Attachment
                     OFFICE OF INSPECTOR GENERAL
                     LEGAL SERVICES CORPORATION




                                  Report Addressed To:

                                     Mr. Kirt West
                                   Inspector General
                               Legal Services Corporation
                                   3333 K Street NW
                                        3rdFloor
                                Washington, DC 20007


This report is privileged and confidential andpreparedfor the Legal Services
Corporation (LSC), OfJice of Inspector General, in accordance with the standards and
guidelines established by the President's Council on Integrity and Efficiency. Any other
distribution of the report and letter of comments will be made at the discretion of the LSC
Inspector General.


                                   Report Issued By:

             NATIONAL RAILROAD PASSENGER CORPORATION
                OFFICE OF INSPECTOR GENERAL - AUDIT
                     10 G STREET, NE, SUITE 3W-300
                         WASHINGTON, DC 20002


                      DATE OF REPORT: August 5,2005
                   PROJECT AND REPORT NUMBER: 105-2005




                            FOR OFFICIAL USE ONLY
                             TABLE OF CONTENTS
                        OFFICE OF INSPECTOR GENERAL
                        LEGAL SERVICES CORPORATION

                        PROJECT AND REPORT # 105-2005




                              TABLE OF CONTENTS

                                                        Page

Report                                                   1

Review Scope and Methodology                             2

Letter of Comments                                       3

Reportable Conditions                                    4

Other Observations                                       11

Appendix - LSC OIG'S July 26,2005 Response
to the Peer Review Draft Report dated July 1,2005




                           FOR OFFICIAL USE ONLY
                                           NATIONAL RAILROAD PASSENGER CORPORATION
                                                 Off~ceof Inspector General, 10 G Street. NE, 5111te3W 300, W a s l i ~ n c ~ t rI,(, ~ ~'crl~ili




August 5,2005

Mr. Kirt West
Inspector General
Legal Services Corporation
Office of Inspector General
3333 K Street NW
3rdFloor
Washington, DC 20007

Dear Mr. West:

We have reviewed the system of quality control for the audit function of Legal Services
Corporation in effect for the period October 1,2003 through September 30,2004. We
conducted our review in conformity with standards and guidelines established by the
President's Council on Integrity and Efficiency (PCIE). We tested compliance with the
OIG's system of quality control to the extent we considered appropriate. These tests
included a review of the audits identified in the enclosure.

In performing our review, we have given consideration to the policy statement on quality
control and external reviews, dated February 2002 issued by the PCIE. That statement
indicates that an OIG's quality control policies and procedures should be appropriately
comprehensive and suitably designed to provide reasonable assurance that the objectives
of quality control will be met. It also recognizes that the nature, extent and formality of
an OIG's system of quality control depends on various factors such as the size of the OIG,
the location of its offices, the nature of the work and its organizational structure.

In our opinion, the system of quality control for the audit function of Legal Services
Corporation in effect for the period October 1,2003 through September 30,2004, has
been designed in accordance with the quality standards established by the PCIE and was
being complied with for the year then ended to provide the OIG with reasonable
assurance of material compliance with professional auditing standards in the conduct of
its audits. Therefore, we are issuing an unqualified opinion on your system of audit
quality control.

We have identified in a separate Letter of Comments dated August 5, 2005 other matters
that came to our attention that do not affect our overall opinion.




Enclosure
                                                                              Attachment 1

    Peer Review Scope and Methodology

    Scope and Methodology

    We tested compliance with the Office of Inspector General's system of quality control to
    the extent w e considered appropriate. These tests included a review of 4 out of the 8
    audit reports issued during the March 30,2004 and September 30,2004 semiannual
    reporting periods. In addition, we reviewed the Independent Public Accountant
    monitoring and the internal quality control reviews that were performed by the LSC OIG
    subsequent t o our review period.

    OIG Offices Reviewed

    We visited the LSC OIG office in Washington, DC and performed our fieldwork at that
    location. The LSC OIG does not have any other branch offices.

    Audit Reports Reviewed

    The following audit reports were reviewed:
-
   Report           Report Date
   Number                                                Report Title
    04-02           12111/03      California Rural Legal Assistance
  AU 04-07          8/27/04       Western Michigan Legal Services
    04-0 1          1/29/04       Legal Aid Society of Greater Cincinnati
- AU  04-06         8/25/04       Legal Services of Northern California
                                             NATIONAL RAILROAD PASSENGER CORPORATION
                                                   Office of Inspector General, 10 G Street, NE, Suite 3W-300, Washington, DC 20002




                                                                                                              AMTRAK




 August 5,2005


Mr. Kirt West
Inspector General
Legal Services Corporation
33 33 K Street NW, 3rdFloor
Washington, DC 20007

Dear Mr. West:

We have reviewed the system of quality control for the audit function of Legal Services
Corporation (LSC) - Office of Inspector General (OIG) in effect for the period 10/1/2003
to 913012004, and have issued our report thereon dated August 5,2005. This letter should
be read in conjunction with that report.

Our review was for the purpose of reporting whether the OIG's internal quality control
system was designed in accordance with the quality standards established by the
President's Council on Integrity and Efficiency (PCIE) and was being complied with for
the year reviewed to provide reasonable assurance of material compliance with
professional auditing standards in the conduct of its audits. We conducted our review in
conformity with standards and guidelines established by the PCIE. Our review would not
necessarily disclose all weaknesses in the system or all instances of noncompliance with
it because our review was based on selective tests.

 There are inherent limitations that should be recognized in considering the potential
 effectiveness of any system of quality control. In the performance of most control
procedures, departures can result from misunderstanding of instructions, mistakes of
judgment, carelessness, or other personal factors. Projection of any evaluation of a
system of quality control to future periods is subject to the risk that one or more
procedures may become inadequate because of changes in conditions or that the degree
of compliance with procedures may deteriorate.

As a result of our review, we identified reportable conditions, which did not affect our
opinion set forth in our report dated August 5,2005. A reportable condition for peer
review purposes represents a significant deficiency in the design or operation of the
reviewed organization's internal control that could adversely affect the organization's
ability to comply with applicable auditing standards and established auditing policies and
procedures. We identified the following reportable conditions:
Reportable Conditions

We noted t h e following reportable conditions and other observations applicable to the
review period. However, the LSC OIG has already performed its own internal review of
its internal quality control system, and identified many of the issues noted in this report
for corrective actions.

Finding 1: Internal Qualihr Assurance Reviews

According to Government Auditing Standards Section 3.49, each audit organization
performing audits and/or attestation engagements in accordance with GAGAS should
have an appropriate internal quality control system. An audit organization's internal
quality control system should include procedures for monitoring, on an ongoing basis,
whether the policies and procedures related to the standards are suitably designed and are
being effectively applied.

During the review period, LSC OIG did not have an internal quality assurance process in
place. This qualifies as a design deficiency according to the PCIE Peer Review
standards.

According to the Acting Assistant Inspector General - Audits (AAIGA), resource
constraints and a lack of direction by the former IG were the reasons for the internal
quality assurance review process not being established. The main risk is that applicable
auditing standards may not be followed and certain deficiencies may not be detected.

Recommendations

We recommend that policies and procedures should be developed for the internal review
process. Also, periodic reviews of completed audits should be performed similar to those
recently completed by the LSC OIG. In the fbture, consideration should be given to have
someone other than the audit staff perform the quality reviews.

Comments of Responsible LSC OIG Official

Concur. At least annually, a quality assurance review will be performed to insure that all
auditing standards are followed and any deficiencies identified. LSC OIG will give full
consideration to having someone other than the audit staff performing the quality
assurance reviews. This requirement will be documented on our revised audit policies.
(Estimated Completion Date: August 3 1,2005)

Finding 2: Internal Oualitv Control System

According to the PCIE guidance, the internal quality control system incorporates the
design of policies and procedures to provide reasonable assurance that applicable
auditing standards are adopted. PCIE Appendix A refers to the requirement for tracking
 and monitoring of audit findings and independent reviews. Appendix F refers to the use
 of checklists as a quality control tool over individual audits.

We noted t h e following areas as design deficiencies:

 1. According to the response provided by the AAIGA to PCIE Appendix A, there is a
    formal policy and tracking system for monitoring audit finding responses and
    closeout for grantees, but not for LSC management. LSC OIG is working to
    formalize a policy by June 05.

2. According to the response provided by the AAIGA to PCIE Appendix A, independent
   reviews are not required - they are performed at the discretion of the IG only.

3. Checklists are not being used to determine if all work paper, and report preparation
   procedures are being followed.

While the use of these tools and procedures is discretionary, in the absence of other
compensating controls, there is a risk that applicable standards may not be followed and
such a lack of compliance to standards may not be detected.

Recommendations

We recommend that LSC OIG consider incorporating the tracking and monitoring of
audit findings on LSC operations. LSC OIG should also consider implementing
independent reviews of all audits. In addition, we recommend the use of quality control
checklists for work paper reviews, audit report reviews, and independent reviews.

Comments of Responsible LSC OIG Official

Concur. A preliminary system is in place where the OIG notifies LSC management
which findings and recommendations must be tracked and receive OIG approval before
being closed. A more detailed policy is being developed. All audits now are required to
be independently referenced. Checklists will be incorporated as needed in our final
revised policy. (Estimated Completion Date: August 3 1,2005)

Finding 3 : IPA Monitoring - Design and Compliance

According to PCIE guidance and Yellow Book standards, the work of Independent Public
Accountants (IPA) under contract with LSC OIG should be adequately monitored and
evaluated. According to the PCIE, LSC OIG is required to review the auditor's approach
and planning; evaluate the qualifications and independence of the auditors (GAS 3.39-
3.41,3.03-3.06,7.32-7.33); monitor the audit progress (PCIE Appendix G - 2.b. (9,(6));
and review the audit documentation to determine that it supports the audit report (PCIE
Appendix G 2.d.).
During our review, we noted that IPA Monitoring procedures were not fully developed.
The LSC OIG Audit Policies and Procedures Manual, Chapter 11, currently contains only
a procedural outline to be used for IPA monitoring. The AAIGA indicated that the target
date for completion of the IPA monitoring procedures is June 05.

To evaluate the adequacy of LSC OIG compliance with the standards, we utilized the
February 2002 version of the Appendix G checklist developed by PCIE. We reviewed
the results o f LSC OIG's internal quality assurance review of IPA monitoring which
identified eight areas of deficiency based on the use of an updated version of the
Appendix G checklist. Since we used the older version of the PCIE program for all areas
of the peer review, our results vary from those of LSC OIG's internal review.

Based on our review of Audit report #AU04-04, Fiscal Year 2003 Audit of the
Corporation, dated 4/26/04, we concluded that LSC OIG did not adequately monitor
M.D. Oppeheim & Company, Public Accountants (IPA), during their performance of the
fiscal 2003 corporate annual audit. The following deficiencies were noted:

    a   There was no evidence that the IPA staff qualifications or independence were
        reviewed. (PCIE Appendix G - 2.a. (1)) (3)).
    a   There was no evidence of OIG participation in a meeting between LSC
        Management and the IPA to discuss the audit objectives and approach. (PCIE
        Appendix G - 2.c. (1)).
    a   There was no evidence of LSC OIG participation in the entrance conference.
        (PCIE Appendix G 2.c. (2)).
    a   There was no evidence that periodic reviews were performed to determine the
        progress and problems encountered during the audit by the LSC OIG. (PCIE
        Appendix G - 2.c. (3)).

We reviewed the work performed by the LSC OIG for the FY 2004 corporate annual
audit and noted a significant improvement in this area.

Recommendations

We recommend that LSC OIG finalize the IPA Monitoring procedures as planned. We
also recommend that LSC OIG use the standards applicable to IPA monitoring when
performing future IPA reviews.

Comments of Responsible LSC OIG Oficial

Concur. The provisions of and checklists contained in the GAOIPCIE Financial Audit
Manual Section 650 were adopted for the FY 2004 work. These provisions and
checklists will be contained in o w final revised policy manual. (Estimated Completion
Date: August 3 1,2005)
Finding 4: Audit Supervision

LSC OIG has established a supervisory review policy according to the Yellow Book
standards and PCIE guidelines. According to GAS 7.44 - 7.47, staff are to be properly
supervised, including reviewing the work performed. Further, reviews of audit work
should be documented. LSC OIG procedures indicate that Giia principai quality control
from an operational standpoint is on-going supervision. The procedures also state that all
audit work papers are to be reviewed by the supervisor. Upon completing PCIE
Appendix F, we noted the following related to supervision:

                                                      No documented            Review
                                                     evidence of work        comments not
                                                       paper review             present
 04-02   California Rural Legal Assistance                   X                     X
AU 04-07 Western Michigan Legal Services                     X                     X
 04-01   Legal Aid Society of Greater                        X                     X
         Cincinnati
AU 04-06 Legal Services of Northern                          X                     X
         California

In all of the audits reviewed, there were no supervisory sign-offs to verify that audit
program steps were completed. In addition, a supervisor did not sign off the audit
findings. In two of the four audits we reviewed, there was no indication of consistent
supervisory involvement (PCIE Appendix F - 6.3, 6.5) in the entire work paper files.
The work papers for 04-02 and 04-01 did not show documentation of review as required
per GAS 7.47. In AU 04-07, there was no supervisory sign-off on the audit program.
Adequate supervision of audits is essential for supervisors to satisfy themselves that the
procedures are conducted properly and that audit objectives are met. The majority of the
work papers in the administrative, background and fieldwork sections were not initialed
and signed by a supervisor as required by LSC OIG policy.

In addition, the four audits in our sample contained "Supervisory Review Comments" (or
Word red-line edit versions) pertaining to the audit report only. There were no review
comments specifically pertaining to the administrative, background or fieldwork sections
of the audit as required by PCIE Appendix F 6.4 and LSC OIG policy.

In summary, we noted that while LSC OIG has developed policies according to Yellow
Book standards and PCIE guidelines with respect to supervision, compliance with these
policies was inadequate.

Recommendations

We recommend increasing the level of supervision of audit work. In addition,
supervisors should sign off on all work papers as evidence of review, including
documenting comments and any follow-up actions taken.
 Comments of Responsible LSC OIG Official

 Concur. The level of supervision has increased significantly. All work papers require
 supervisory sign off once all questions and issues have been addressed. All supervisory
 reviews and follow up actions taken are required to be documented. (Closed)

 Finding 5 : Work paDer Referencing

LSC OIG has established audit work paper policies according to the Yellow Book
standards and PCIE guidelines. According to GAS 7.66 "Audit documentation related to
planning, conducting, and reporting on the audit should contain sufficient information to
enable an experienced auditor who has had no previous connection with the audit to
ascertain from the audit documentation the evidence that supports the auditors'
significant judgments and conclusions." LSC OIG policy states "Working papers should
be indexed and cross-indexed, as appropriate, one to another, to working paper
summaries and lead schedules, and to the draft and final reports". Upon completing
PCIE Appendix F, we noted the following related to work paper referencing:

                                                        One-way              Inconsistent
                                                       referencing           referencing
 04-02      X
         California Rural Legal Assistance                                         X
-
AU 04-07   1X
 04-01      X
         Legal Aid Society of Greater                                              X
         Cincinnati
AU 04106 Legal Services of Northern                         X                      X
         California

In all of the audits we reviewed, we noted one-way referencing throughout the entire
work papers. Most importantly, there was one-way referencing from the final indexed
audit report to the work papers. As a result, we were unable to accurately trace all
references to/from their source. While GAS 7.67 states that the quantity, type, and
content of the documentation are a matter of the auditors' professional judgment, the
referencing does not comply with the LSC OIG policy.

Additionally, we found instances of inconsistent referencing on work papers. For
example, in 04-02, the draft audit report was referenced to F-IF, while the same
statement in the final audit report was referenced to E-4 1-3/2. In 04-01, the draft report
was referenced to the finding work paper E-2- 1, but there was no underlying support
reference for the finding. In AU 04-06, the draft report was referenced to work paper E-1
that contained case numbers, but the numbers could not be substantiated to their source.
Proper audit documentation is important, as stated in GAS 7.68, to provide the principal
support for the auditors' report, to aid auditors in conducting and supervising the audit,
and to allow for the review of audit quality.
In summary, we noted that while the LSC OIG has developed policies according to
Yellow Book standards and PCIE guidelines with respect to work paper referencing,
compliance with these policies is inadequate.

Recommendation

We recommend enforcement of the LSC OIG cross-referencing procedures to ensure that
all references or indexes flow to and from one another.

Comments of Responsible LSC OIG Official

Concur. LSC OIG cross-referencing procedures are now being enforced. (Closed)

Finding 6 : Preparation of Audit Findings

LSC OIG has established policies related to preparation of audit finding according to the
Yellow Book standards and PCIE guidelines. According to GAS 7.62, "Audit findings
often have been regarded as containing the elements of criteria, condition, and effect, plus
cause where problems are found." Further, LSC OIG requires findings of noncompliance
to be documented with "condition, cause, criteria, effect, conclusion, and
recommendation."

Upon completing PCIE Appendix F sections 10.2(b) and 10.8(a), we noted that the audit
findings for the four audits we reviewed were not prepared in a standardized format.
Separate finding sheets were not prepared for three of the four audits. Instead, the
auditors used the Purpose, Scope, Source, Conclusion (PSSC) documents to incorporate
some aspects of the recommended elements of findings and the format varied from audit
to audit. In addition, the documents containing the findings did not specifically identify
or label the finding elements described above.

Thus, while the LSC OIG has developed policies according to Yellow Book standards
and PCIE guidelines with respect to audit findings, compliance with these policies is
inadequate. Use of this audit finding documentation methodology assists the auditor in
more effectively developing the audit findings and report. Additionally, finding sheets
serve as an important link between the audit report and work papers.

Recommendations

We recommend creating a standard "finding sheet" to be used on all audits that are cross-
referenced tolfrom the audit report and work papers. The finding sheets should include
the elements mentioned in GAS 7.62-65.

Comments of Responsible LSC OIG Official

Concur. LSC OIG processes and procedures will continually be evaluated to improve the
OIG operations. As part of this evaluation, a standard "finding sheet" will be created if
we find that the information already required in the work papers does not adequately
serve as an important link to the audit report. (Closed)

Finding 7: Audit Plans

Yellow Book, PCIE standards, and LSC OIG policy set forth guidelines and requirements
with respect to audit planning. According to GAS 7.07, audit planning should be
documented and should include preparation of an audit plan (program). Further,
according to GAS 7.43 (b), the audit plan may include information instructing each
auditor about his or her responsibilities (such as reviewing audit work, drafting reports,
and processing the final report).

We found that in all four audits we selected, the audit programs did not include certain
steps, as suggested by GAS 7.43, necessary for the administration of the audit (i.e.
supervisory review, drafting and issuance of reports, and holding entrancelexit
conferences). When audit programs do not document certain steps, there is a risk that
one or more steps required by the audit standards will not be performed. Including these
steps as part of the audit program will ensure the audit is properly administered. In
addition, incorporating certain steps, such as supervisory work paper review, in the audit
plan will facilitate ongoing review by supervisors as we suggested under Audit
Supervision earlier.

During our review of 04-01, we noted that the audit program was a photocopy of the
program used for 04-02. In addition, because the audit program was a photopcoy, the
preparation and review signatures were identical to those in 04-02 even though the
auditors assigned to 04-01 were not the same as 04-02.

Recommendation

We recommend that audit programs should incorporate the various steps required
throughout the entire audit process and supervisors should review and approve the audit
programs.

Comments of Responsible LSC OIG Official

Concur. All audit programs are required to incorporate the various steps required
throughout the entire audit process. Supervisors will review and approve the audit
program before program steps are accomplished. (Closed)
 Other Observations

 1. Audit Plan Coverage

During the review period, there were no Information Technology or Legal Services
Corporation audits performed. The Strategic Plan for the Legai Services Corporation
Office of the Inspector General (OIG) was developed in October 1999. The risk
assessment presented as the basis for the plan identifies information technology as a
medium risk. It also discussed the planned implementation of a new accounting system
and rated the risk related to the system as high. According to the plan, Information
Technology audits were scheduled to be performed in Fiscal years 2002, 2003,2004 and
2005. Our review of audit reports issued from the OIG website indicates there were no
information technology audits performed during the period 1996-2004.

The Strategic Plan also discussed the risk of fraud within LSC itself and deemed it to be
medium, citing procurement activities as having the highest exposure. There were no
LSC corporate reviews performed during the period.

The professional standards of American Institute of Certified Public Accountants aIso
require auditors to consider IT risks that could result in misstatements. A s an entity's
operations and systems become more complex and sophisticated, it is more likely that the
auditor needs to increase understanding of information technology internal controls.

By not performing IT or Corporate audits, the potential risks associated with these
functions are not being addressed. A lack of LSC Corporate audits could mean potential
exposure to fraud if it is not identified, and economy, efficiency and effectiveness of LSC
operations are not assessed. A lack of Information Technology audits could fail to reveal
issues associated with the integrity of the data processed through the systems, availability
of information, and accuracy as well as reliability of data.

Recommendation

We recommend that LSC OIG consider performing Information Technology and
Corporate reviews each year as part of the annual audit plan.

Comments of Responsible LSC OIG Official

Concur. Information Technology and Corporate reviews, as well as all other types of
reviews, will be considered each year as part of the annual plan. However, the AIGA and
the IG will exercise their judgment as to what to include each year in the annual plan.

2. Semiannual Report to Congress

Section 5(a)(6) of The Inspector General Act of 1978 specifies that the Semiannual
Reports should contain "a listing, subdivided according to subject matter, of each audit
report issued by the Office during the reporting period and for each audit report, where
applicable, the total dollar value of questioned costs (including a separate category for the
dollar value of unsupported costs) and the dollar value of recommendations that funds be
put to better use."

We noted that the two Semiannual Reports to Congress during the review period did not
include a list of all audit reports issued, as required under section 5(a)(6) above. 'The
reports included reference to section 5(a)(6), but indicated that it was not applicable. We
believe this occurred because the LSC OIG erroneously thought that such a listing is not
required when the audit reports have zero questioned costs or funds to be put to better
use.

Recommendation

We recommend that the semiannual reports should include a list of all reports issued
during the period.

Comments of Responsible LSC OIG Official

Concur. A list of all audit reports issued during the period will be included in the
semiannual report.




Sincerely,




Deputy Inspector General - Audit
                                                                           Legal Services Corporation
II' LSC
="                                                                         Office of Inspector General




Inspector General
Kirt West                                             July 26, 2005



         Mr. Gary E. Glowacki
         Deputy lnspector General - Audits
         National Railroad Passenger Corporation
         10 G Street, NE, Suite 3w-300
         VJashlngion , DC 20C02

         Dear Mr. Glowacki:

              Thank you and your staff for conducting the peer review of the Legal
        Services Corporation, Office of lnspector General audit program.

              I have reviewed the draft Peer Review report and opinion letter and agree
        with all reportable findings and recommendations, which will be promptly
        implemented. My detailed responses are attached.

              I appreciate the opportunity to comment on the draft Peer Review report
        and your opinion letter and look forward to receiving the final report. Please
        contact me on (202) 295-1650 if I can be of assistance.

                                                     Sincerely,



                                                     Kirt West
                                                     lnspector General

       Attachment




                                                                         3333 K Street, NW 3rd Floor
                                                                         Washington, DC 20007-3522
                                                                         Phone 202.295.1500 Fax 202.337.6516
                                                                         www.oig.lsc.gov
  Reportable Conditions

 Findinq 1: lnternal Qualitv Assurance Reviews. Concur. The need for a formal
 internal quality assurance process was recognized as one of the main concerns
 for LSC OIG1s audit program by the new lnspector General. As such, the
 Inspector General had a quality review conducted and, as indicated earlier in this
 report, identified many of the same issues noted in the peer review.

 Recommendations

 We recommend that policies and procedures should be developed for the
 internal review process. Also, periodic reviews of completed audits should b e
 performed similar to those recently completed by the LSC OIG. In the future,
 consideration should be given to have soqeone other than the audit staff perform
 the quality reviews.

 Comment of Responsible LSC OIG Official. Concur. At least annually, a quality
 assurance review will be performed to insure that all auditing standards are
 followed and-any deficiencies identified. LSC OIG will give full consideration to
 having someone other than the audit staff performing the quality assurance
 reviews. This requirement will be documented on our revised audit policies.
 (Estimated Completion Date: August 31, 2005)

Findinq 2: Internal Qualitv Control System Concur. There was no formal policy
or system to track and monitor audit findings directed to LSC management
because previous LSC IG1s elected to only conduct reviews of grantee
operations. Thus, such a policy served no purpose. However, reviews of LSC
management have now been conducted and these reviews will be an integral
part of the OIG's overall audit program.

Recommendations

We recommend that LSC OIG consider incorporating the tracking and monitoring
of audit findings on LSC operations.           LSC OIG should also consider
implementing independent reviews of all audits. In addition, we recommend the
use of quality control checklists for work paper reviews, audit report reviews, and
independent reviews.

 Comment of Responsible LSC OIG Official Concur. A preliminary system is in
place where the OIG notifies LSC management which findings and
recommendations must be tracked and receive OIG approval before being
closing. A more detailed policy is being developed. All audits now are required
to be independently referenced. Checklists will be incorporated as'needed in our
final revised policies. (Estimated Completion Date: August 31, 2005)
 Findins 3 : IPA Monitorinq - Design and Compliance. Concur. The major issue
 with monitoring the work for the FY 2003 corporate audit was documenting the
 actual work accomplished. As noted in the finding, the OIG made significant
 improvement in this area for the FY 2004 corporate annual audit.

 Recommendations

 We recommend that LSC OIG finalize the IPA Monitoring procedures as planned.
 We also recommend that LSC OIG use the standards applicable to IPA
 monitoring.

Comment of Responsible LSC OIG Official. Concur. The provisions of and
checklists contained in the GAOIPCIE Financial Audit Manual Section 650 were
adopted for the FY 2004 work. These provisions and checklists will be contained
in our final revised policy manual. (Estimated Completion Date: August 31,
2005)

Findinq 4: IPA Audit Supervision. Concur.

Recommendations

We recommend increasing the level of supervision of audit work. In addition,
supervisors should sign off on all work papers as evidence of review, including
documenting comments and any follow-up actions taken.

Comment of Responsible LSC OIG Official. Concur. The level of supervision
has increased significantly. All work papers require supervisory sign off once all
questions and issues have been addressed. All supervisory reviews and follow
up actions taken are required to be documented. (Closed)

Finding 5: Work paper Referencinq. Concur.

Recommendations

We recommend enforcement of the LSC OIG cross-referencing procedures to
ensure that all references on indexes flow to and from one another.

Comment of Responsible LSC OIG Official. Concur. LSC OIG cross-referencing
procedures are now being enforced. (Closed)
 Finding 6: Preparation of Audit Findings. Concur

 Recommendations

We recommend creating a standard "finding sheet" t~ be used on all audits that
are cross-referenced tolfrom the audit report and work papers. The finding
sheets should include the elements mentioned in GAS 7.62-65.

Comment of Responsible LSC OIG Official. Concur. LSC OIG processes and
procedures will continually be evaluated to improve the OIG operations. As part
of this evaluation, a standard "finding sheet" will be created if we find that the
information already required in the work papers does not adequately serve as an
important link to the audit report. (Closed)

Findins 7: Audit Plans. Concur.

Recommendations-

We recommend that audit programs should incorporate the various steps
required throughout the entire audit process and supervisors should review and
approve the audit programs.

Comment of Responsible LSC OIG Official. Concur. All audit programs are
required to incorporate the various steps required throughout the entire audit
process. Supervisors will review and approve the audit program before program
steps are accomplished. (Closed)
 Other Observations

 1.     Audit Plan Coveraqe.

 The previous IG made a-decision that the LSC OIG would focus Cn grante~
 compliance because it was of greatest interest to our Congressional overseers
 and was the one thing that would have the most impact on continued funding.
 Thus audit focus was on the grantees and not on petformance audits at the
 headquarters. In addition, the headquarters books were audited each year by a
 CPA firm, selected and monitored by the LSC OIG.

 The technology audits referenced by in this area are not audits of technology, but
 audits of compliance with the grant provisions for technology grants administered
 by LSC. LSC OIG does not audit a grantees' technology. As far as the IT
 function within LSC HQ, it is neither complex nor sophisticated. However, since
 all functions within LSC HQ will be reviewed, the IT function will be audited in the
 coming months.

 Recommendation

We recommend that the LSC OIG consider performing lnformation Technology
and Corporate reviews each year as part of the annual audit plan.

Comments of Resoonsible LSC OIG Official. Concur. lnformation Technology
and Corporate reviews, as well as all other types of reviews, will be considered
each year as part of the annual plan. However, the AIGA and the IG will exercise
their judgment as to what to include each year in the annual plan.



Disagree that the two semiannual reports to Congress do not contain a list of all
audit reports. While the list may not have been in a particular format, all audit
reports were listed. However, presenting the audits in a different format may be
beneficial.

Recommendation

We recommend that the semiannual reports should include a list of all reports
issued during the period.

Comments of Resoonsible LSC OIG Official. Concur. A list of all audit reports
issued during the period will be included in the semiannual report.
